OIG Audit Report 09-12
Drug Enforcement Administration Annual Financial Statement, Fiscal Year 2008
Audit Report 09-12
February 2009
Office of the Inspector General
Commentary and Summary
This audit report contains the  Annual Financial Statement of the Drug Enforcement Administration (DEA) for the  fiscal years (FY) ended September 30, 2008, and September 30, 2007.  Under the direction of the Office of the  Inspector General (OIG), KPMG LLP performed the DEA audit, which resulted in an  unqualified opinion on the FY 2008 financial statements. An unqualified opinion means that the  financial statements present fairly, in all material respects, the financial  position and the results of the entity’s operations in conformity with U.S.  generally accepted accounting principles. For FY 2007, the DEA also received an unqualified  opinion on its financial statements (OIG Report No. 08-13).
KPMG LLP also issued  reports on internal control over financial reporting and on compliance and  other matters.  No issues were identified  in the Independent Auditors’ Report on Internal Control over Financial  Reporting and the auditors concluded that the DEA’s internal control over  financial reporting achieves the objectives described in Government Auditing  Standards and OMB Bulletin No. 07-04.  The FY 2007 Independent  Auditors’ Report on Internal Control reported one significant deficiency, which  has been satisfactorily resolved. No instances of non-compliance with laws and regulations or other  matters were identified during the audit.
The OIG reviewed KPMG LLP’s reports and  related documentation and made necessary inquiries of its representatives.  Our review, as differentiated from an audit  in accordance with U.S. generally accepted government auditing standards, was  not intended to enable us to express, and we do not express, an opinion on the DEA’s financial  statements, conclusions about the effectiveness of internal control,  conclusions on whether the DEA’s financial management systems substantially complied  with the Federal Financial Management Improvement Act of 1996, or conclusions  on compliance with laws and regulations.   KPMG LLP is  responsible for the attached auditors’ reports dated October 31, 2008, and the  conclusions expressed in the reports. However,  our review disclosed no instances where KPMG LPP did not comply, in all material respects, with U.S.  generally accepted government auditing standards.
Return to OIG Home Page